<html>
<title> - FILIPINO VETERANS EQUITY COMPENSATION FUND: INQUIRY INTO THE ADEQUACY OF PROCESS IN VERIFYING ELIGIBILITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                  FILIPINO VETERANS EQUITY COMPENSATION 
                   FUND: INQUIRY INTO THE ADEQUACY OF 
                   PROCESS IN VERIFYING ELIGIBILITY

=======================================================================

                                HEARING

                               BEFORE THE
                               
       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                OF THE
                                
                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      THURSDAY, NOVEMBER 20, 2014

                               __________

                           Serial No. 113-93

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
         
                               ____________
                               
                         U.S. GOVERNMENT PUBLISHNING OFFICE
96-136                         WASHINGTON : 2015                         
                     
________________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1572657a55766066617d7079653b767a783b">[email&#160;protected]</a>  
                    
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking Member
GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas
MARK AMODEI, Nevada                  RAUL RUIZ, California
PAUL COOK, California                GLORIA NEGRETE McLEOD, California
DAVID JOLLY, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                      Thursday, November 20, 2014

                                                                   Page

Filipino Veterans Equity Compensation Fund: Inquiry Into the 
  Adequacy of Process in Verifying Eligibility...................     1

                           OPENING STATEMENTS

Jon Runyan, Chairman.............................................     1
Dina Titus, Ranking Member.......................................     2

                               WITNESSES

Mr. Brad Flohr, Senior Advisor for Compensation, VBA, .S. 
  Department of Veterans' Affairs................................     3
    Prepared Statement...........................................    14
Brigadier General David K. ``Mac" MacEwen, The 59the Adjutant 
  General of the U.S. Army, Department of the Army...............     5
    Prepared Statement...........................................    15
Mr. Kevin Pratt, Assistant Director for Military Records, 
  National Personnel Records Center National Archives and Records 
  Administration.................................................     6
    Prepared Statement...........................................    17

                             FOR THE RECORD

Mr. Eric Lachica, Executive Director, American Coalition for 
  Filipino Veterans, Inc.........................................    19

 
 FILIPINO VETERANS EQUITY COMPENSATION FUND: INQUIRY INTO THE ADEQUACY 
                  OF PROCESS IN VERIFYING ELIGIBILITY

                              ----------                              


                      Thursday, November 20, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
Subcommittee on Disability Assistance and Memorial Affairs,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 11:05 a.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[chairman of the subcommittee] presiding.
    Present:  Representatives Runyan, Lamborn, and Titus.
    Also Present: Representative Heck.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good morning, and welcome everyone. This 
oversight hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs will now come to order. Today's hearing 
will focus on the process of verifying eligibility for the 
Filipino Veterans Equity Compensation Fund benefits. We will 
seek information on the claims approval process, the status of 
this program, and the system designed for the program's 
eligibility and determination processes.
    During World War II, hundreds of thousands of Filipino 
soldiers and guerrilla fighters served alongside American 
forces in the fight against the Japanese conquest. In 
recognition of their service to the United States during the 
war, Congress established the Filipino Veterans Equity 
Compensation Fund in 2009. This fund provided for one-time 
payments of $15,000 for eligible Filipino veterans living in 
the United States, and $9,000 to those eligible veterans living 
in the Philippines. Under the VA's processes for determining 
eligibility, almost 19,000 claims have been approved, but 
nearly 24,000 claims have been denied. In the process, some 
Filipino veterans voiced concern over the eligibility process, 
including concerns that some have been improperly denied and a 
benefit that they should have been eligible to receive.
    To look into the matter in 2012, the White House created 
the Filipino Veterans Equity Compensation Fund Interagency 
Working Group, where the process and the documentation 
gathering was reviewed. Although the working group report 
provided more transparency to the process than ever, some 
Filipino veterans still have concerns about whether the 
documentation used to determine the eligibility are adequately 
inclusive.
    In the statements submitted for the record at this hearing, 
the American Coalition for Filipino Veterans represents that 
the process is flawed, partly because the government only 
relies on the Army's records from a 1948 study.
    It is suggested that the VA should expand what it 
previously accepted as verification of service to include U.S. 
Government documents other than those in the records from the 
Army's 1948 study. So in today's hearing, we will hear from the 
VA, the Army, and the NARA, which will seek information on the 
process that was employed to determine the eligibility for 
compensation from Filipino Veterans Equity Compensation Fund. 
Determination deemed acceptable and the justification of or for 
the limitations that were used.
    At this time I ask unanimous consent for participation of a 
member guest from the Third District of Nevada, Dr. Joe Heck to 
sit in on the hearing. Hearing no objection, so ordered.
    With that, I will begin with the introductions of the 
witnesses. First, we have Mr. Brad Flohr, who is a Senior 
Advisor for Compensation Service at the Veterans Benefits 
Administration, U.S. Department of Veterans Affairs.
    Seated next to Mr. Flohr is Brigadier General David 
MacEwen, the 59th Adjutant General of the U.S. Army.
    Our third witness will be Mr. Kevin Pratt, the Assistant 
Director for Military Records for the National Personal Records 
Center, National Archives and Records Administration.
    I thank all of you for being with us today. I look forward 
to hearing your testimony, and I will now yield to the ranking 
member, Ms. Titus, for her opening statement.

         OPENING STATEMENT OF RANKING MEMBER DINA TITUS

    Ms. Titus. Thank you, Mr. Chairman, and thank you for 
agreeing to have a hearing on this important topic. I also want 
to say how much we appreciate our witnesses being with us today 
and taking time to provide needed information. And thanks to 
our Filipino veterans who have come to show support for this 
issue.
    It is important that we get together to discuss the 
Filipino Veterans Equity Compensation Fund because the 
Philippines have a long and distinguished history of 
associating and being part with the United States, including 
fighting alongside of us in military campaigns and wars. We are 
very grateful for their action on behalf of our Nation. I am 
proud to have a very active group of Filipino veterans who live 
in District One in Las Vegas, and I thank them for their 
service and for their guidance on this issue.
    The fund, as many of you know, was established to 
compensate and thank these veterans who served so bravely 
alongside the American Army in the South Pacific in World War 
II. As part of the stimulus that was passed in the 111th 
Congress which I proudly voted for, we finally took actions to 
provide additional benefits for these Filipino veterans.
    Nevertheless, I continue to hear concerns from my Filipino 
veteran constituents in Las Vegas, who believe that while the 
program was well intended, there are still problems with it, 
and there may be veterans who are being denied the benefits 
that they earned. So it is critical that Congress, as well as 
the administration, work to ensure that in some cases we look 
to additional evidence for facts when necessary.
    Earlier this year, the appropriators directed the VA to 
consider all forms of evidence of service, not just those 
originally considered. And I agree with this statement and look 
forward to working with my colleagues on the committee to 
ensure that Filipino veterans are being treated fairly.
    Now, I understand we are in a challenging situation needing 
to verify veteran services that are more than 70 years old. 
However, we can't simply apply the principle of one-size-fits-
all approach to the claims. Most of our World War II Filipino 
veterans are already in their 90s, so we are limited in the 
amount of time we have to get this right. Any impediments to 
veterans who might show clear and irrefutable evidence that 
they should be granted benefits, should be considered. But we 
need to act fast. Nonetheless, we must be careful to ensure 
that we are being good stewards of resources.
    Lastly, I hope that we can put to rest any notion that the 
Department of Defense is withholding information that could 
positively impact these veterans' claims. After some 70 years, 
all of the information that is available should be made public. 
I hear too often from our veterans from the Philippines and 
their advocates that the DOD is not being transparent, and is 
failing to provide necessary information. Part of this, 
perhaps, is a lack of communication and so this hearing is 
important to maybe put that aside and get that communication 
out there.
    The men and women that we are discussing today fought on 
behalf of our Nation and they should receive the same benefit 
of the doubt that U.S. servicemembers receive when they are 
asking for benefits that they earned.
    So I look forward to hearing how this process is working, 
what information is available, how to solve some of the 
communication problems and clear up some of the transparency 
issues. So I thank you again, and I yield back.
    Mr. Runyan. I thank the gentlelady, and again, welcome the 
witnesses. And we will hear from each of you for your oral 
testimony and we will start with Mr. Flohr. You are recognized 
for 5 minutes for your oral testimony.

   STATEMENTS OF BRAD FLOHR, SENIOR ADVISOR FOR COMPENSATION 
 SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
 VETERANS AFFAIRS; BRIGADIER GENERAL DAVID K. ``MAC'' MACEWEN, 
59TH ADJUTANT GENERAL OF THE U.S. ARMY, DEPARTMENT OF THE ARMY; 
   AND KEVIN PRATT, ASSISTANT DIRECTOR FOR MILITARY RECORDS, 
   NATIONAL PERSONNEL RECORDS CENTER, NATIONAL ARCHIVES AND 
                     RECORDS ADMINISTRATION

                    STATEMENT OF BRAD FLOHR

    Mr. Flohr. Chairman Runyan, Ranking Member Titus, and 
subcommittee members, thank you for the opportunity to provide 
testimony today and an update on the VA's administration of the 
Filipino Veterans Equity Compensation Fund. In 1941, as you 
said, more than 260,000 Filipino soldiers responded to 
President Roosevelt's call to arms and fought under the 
American flag during World War II. Many served as both soldiers 
in the U.S. Armed Forces as well as guerrillas afterwards 
during the occupation of Japan. Later, many of these brave 
individuals became proud United States citizens.
    In 1946, Congress passed the Rescission Act, determining 
that Filipino World War II service does not qualify for the 
full range of benefits available to the United States veterans. 
Congress and this administration recognizes the extraordinary 
contribution made by Filipino veterans. The American Recovery 
and Reinvestment Act of 2009, enacted on February 17 of 2009, 
included a provision creating the Filipino Veterans Equity 
Compensation Fund. Eligible veterans who are U.S. citizens 
receive a one-time payment of $15,000. Eligible veterans who 
are not U.S. citizens receive a one-time payment of $9,000. 
Philippine veterans were required under the law to file a claim 
by February 16th of 2010.
    To qualify for the FVEC payment, an individual must have 
served before July 1, 1946, in the Philippine Commonwealth 
Army, including recognized guerrillas, or in the New Philippine 
Scouts. In determining whether claimants are eligible for any 
VA benefit, including the FVEC, VA is bound by U.S. military 
service department determinations as to whether the claimant 
has qualifying service in accordance with our regulations at 
Title 38 CFR 3.203. Less than 2 months after the law was 
passed, VA established an adjudication process, a payment 
system, an accounting system, and a payment delivery system, to 
successfully issue the first FVEC payment on April 8, 2009.
    VA conducted numerous successful outreach programs to 
inform veterans and their families about this benefit. This 
outreach continued until February 16, 2010, which was the last 
day of the filing period for this benefit.
    VA's Manila regional in office established a dedicated team 
of employees who solely processed these claims. The Manila 
regional office also sent letters to all veterans found 
eligible for the FVEC benefit, advising them of their potential 
eligibility for VA disability compensation benefits. The Manila 
regional office received 42,755 claims for FVEC between 
February 2009 and February 2010. As of October 31 of 2014, the 
regional office has granted 18,929 of these claims, totaling 
$225,668,204.
    Currently there are 23,826 claims that have not been 
granted due to ineligibility. All original claims have received 
a decision, but there are 15 reopened claims and 10 appeals 
pending at the Manila regional office. Approximately 32 appeals 
of these decisions are pending with the Board of Veterans 
Appeals, and another nine appeals are before the United States 
Court of Appeals for Veterans Claims.
    If all individuals with reopened claims or pending appeals 
are found to be eligible for this payment, the Manila regional 
office would pay additional funds of approximately $1 million 
out of the appropriation. This assumes that all pending claims 
and appeals, if granted, would be paid at the maximum $15,000. 
In addition, $17.1 million has been returned to the Treasury 
for returned checks, which resulted when a veteran dies without 
a surviving spouse claimant.
    A total of $56.4 million remains in the FVEC appropriation. 
The primary reason for denial of claims is the inability of 
these individuals to establish qualifying service required by 
Section 1002(d) of the Recovery Act. The denied claimants 
include individuals from all walks of life who exercised their 
right to make an application to VA, including children, 
grandchildren, and other family members of alleged veterans, 
widows of long-deceased alleged veterans, and thousands of 
duplicate claims.
    Unless VA has a genuine document issued by the U.S. 
military service department containing needed information to 
establish eligibility, VA regulations applicable to all 
claimants require that VA request verification of military 
service from the appropriate military service department. For 
claims based on Philippine service in World War II, the U.S. 
Army is a relevant military service department, and request for 
such verification are sent to the NPRC, which since 1998, has 
acted as the custodian of the U.S. Army's collection of Army 
and guerrilla records.
    This concludes my testimony, Mr. Chairman. I would be happy 
to address any questions you or the other members of the 
committee may have.
    Mr. Runyan. Thank you, Mr. Flohr.

    [The prepared statement of Mr. Flohr appears in the 
Appendix]

    Mr. Runyan. And with that, we will now hear from Brigadier 
General MacEwen. General, you are now recognized for 5 minutes.

        STATEMENT OF BRIGADIER GENERAL DAVID K. MACEWEN

    General MacEwen. Chairman Runyan, Ranking Member Titus, 
distinguished members of this committee, I thank once again for 
the opportunity to appear before you on behalf of America's 
Army, to discuss the Filipino Army veterans' verification 
process.
    I sit before you today as has been the case with Army 
Adjutant Generals over many years with great confidence knowing 
that the Army's process of verifying Filipino Army service is 
sound and adequate. For the 3 years post-World War II, the 
Filipino Government worked in conjunction with the U.S. Army to 
establish guerrilla and Philippine Army unit rosters and to 
capture relevant service data. This is the same data the Army 
uses today in its role of verifying Filipino service as we 
support the Veterans Administration in its role of providing 
benefits.
    Verifying Filipino service today is based on the very same 
process established in 1948 in conjunction with the Philippine 
Government. When I use the term ``verify,'' I don't use it 
arbitrarily. Verify is the most appropriate term because the 
service determinations have already been made. The people on 
the ground after the war, both American and Filipino, conducted 
years of research interviewing commanders and leaders at 
various organizational levels and gathered and stored massive 
amounts of authoritative documents. They turned over every 
stone possible and imaginable to us, to leave us with the 
system and documents we use today with the understanding and 
the foresight to know that we would not be able to make a more 
fair, adequate, or auditable service determination today 
without them.
    By the end of the war, of the nearly 1.3 million claims 
reviewed, the Army, through its collaborative effort with the 
Filipino government recognized and approved approximately 
260,000. I ask you to keep three points in mind: First, 
accepted historical documentation makes it clear Filipino 
service within recognized units did not approach a figure 
anywhere near 1.3 million claims submitted.
    Second, these determinations were made by people on the 
ground at that time only after extensive research was 
completed. And unfortunately, a majority of the time they were 
presented with the very unpleasant task of having to deny a 
claim, the same as we must do today.
    Third, claims were denied then as they are today for very 
legitimate and justifiable reasons. Changing the service 
verification process by accepting non-verifiable service 
documentation for Filipino army and guerrilla veterans may 
result in a significant number of faulty service verifications. 
Over the years, the Department of the Army has been requested 
to establish different processes for Filipino veterans to prove 
their service. However, we continue to be confident that our 
process is adequate and it was sound. We will continue to work 
closely with the National Personnel Records Center and the 
Veterans Administration, to provide the best possible service 
to our Filipino veterans.
    Chairman Runyan, Ranking Member Titus, and members of the 
subcommittee, we wish to thank you for your continued support 
which has been vital to sustaining our all-volunteer Army 
through unprecedented periods of continuous combat operations 
which continue to be vital to ensure the future of our Army. I 
look forward to answering your questions today.
    Mr. Runyan. Thank you, General.

    [The prepared statement of General MacEwen appears in the 
Appendix]

    Mr. Runyan. With that, I recognize Mr. Pratt for 5 minutes 
for his testimony.

                    STATEMENT OF KEVIN PRATT

    Mr. Pratt. Thank you. Good morning Chairman Runyan, Ranking 
Member Titus, and members of the subcommittee. Thank you for 
calling this hearing and for your continuing efforts to 
recognize the extraordinary contributions of Philippine 
veterans, including those who served in guerrilla units, for 
the service they provided in support of the United States 
during World War II. I am delivering testimony on behalf of the 
National Personnel Records Center that is similar to a 
statement entered by the NPRC Director Scott Levins in a 
hearing before the House Armed Services Committee earlier this 
year.
    As one of many veterans that work at NPRC, I am pleased to 
appear before you today to discuss the work the Center does to 
serve those who have served. We appreciate your interest in 
this important work. The NPRC is an office of the National 
Archives and Records Administration located in two facilities 
in the St. Louis, Missouri area, the Center stores and services 
over 4 million cubic feet of military and civilian personnel, 
medical, and related records dating back to the Spanish 
American War. Included in the NPRC holdings are claim folders 
pertaining to Philippine nationals that were adjudicated by the 
U.S. Army after World War II and unit rosters created by the 
U.S. Army in conjunction with its postwar recognition program.
    In 1998 NARA entered into an agreement with the Department 
of the Army to accept the physical transfer of these records 
though they remain in the legal custody of the Department of 
Army. Also, as part of the agreement, beginning in fiscal year 
1999, NPRC assumed the responsibility for referencing these 
records, consistent with the procedures previously established 
by the Army.
    In doing so, NPRC reviews its holdings to authenticate 
service determinations previously made by the Department of 
Army. NPRC does this by examining claim folders, finding aids 
in a variety of rosters compiled by the Army during its postwar 
recognition program. Most often this is done in response to 
requests from the Department of Veterans Affairs, regarding 
compensation claims. Recognizing the urgency of these requests, 
NPRC strives to respond to these requests in 10 business days 
or less. The technical instructions applied by NPRC technicians 
in referencing these records and responding to such requests, 
has been furnished to the American Coalition for Philippine 
Veterans and has been posted online for public viewing. The 
instructions are consistent with the long-standing policies and 
practices of the Department of Army, and were applied by the 
Army staff prior to the transfer of the reference function to 
NPRC. On multiple occasions since the establishment of the 
Filipino Veterans Equity Compensation Fund, officials from the 
Department of Army have visited NPRC, reviewed its technical 
instructions, examined its work process, and confirmed that 
NPRC was providing reference services consistent with the long-
established policies and practices of the Department of Army.
    NARA has also preserved records of historical value 
documenting events that transpired in the Philippines during 
and after World War II. Included are records describing actions 
taken by the U.S. Army to recognize the service of Philippine 
nationals who supported the United States Army forces in Far 
East, including those who served in guerrilla units. These 
records are available for public review at the National 
Archives building in College Park, Maryland.
    NARA is pleased to work with the subcommittee, the Army, 
and the VA, and other stakeholders to ensure Filipino veterans, 
including those who served in recognized guerrilla units, are 
recognized for their extraordinary service in support of the 
United States during World War II. We have briefed interested 
congressional staff and other stakeholders on NARA's role in 
this process, and we actively participated in an interagency 
working group established by the White House to analyze the 
process, and we have shared with Filipino veteran advocacy 
groups to help provide greater understanding of the reference 
process we employ to authenticate service determinations made 
by the Department of Army.
    Working with the Department of the Army we modified our 
response letters to provide more specific details regarding our 
reference results in instances where we were unable to 
positively authenticate prior service determinations. And at 
the suggestion of the White House Interagency Working Group we 
digitized and posted online a report entitled: U.S. Army 
Recognition Program of the Philippine Guerrillas. We again 
extend our thanks to the subcommittee for expressing such great 
interest in the role that NPRC provides in this important 
process. I am happy to answer any questions you might have.
    Mr. Runyan. Thank you, Mr. Pratt.

    [The prepared statement of Mr. Kevin Pratt appears in the 
Appendix]

    Mr. Runyan. With that, we will begin a round of questions. 
And my first question is going to be for General MacEwen, and 
thank you for coming today and your distinguished service.
    I understand that there are still many questions in the 
Filipino veteran community regarding eligibility, though I do 
believe that the interagency working group did affect positive 
changes, particularly as it relates to transparency of the 
process. But I believe there is still a concern. You noted that 
at the end of the war, there were 1.3 million individuals who 
made claims, but only 260,000 were approved. Clearly, the type, 
length and nature of service that qualified for consideration 
even at the time was confusing. Could you tell us a bit more 
about the service that qualifies for the FVEC claims?
    General MacEwen. Thank you, Mr. Chairman. The basic 
criteria that was used by the Army in conjunction with the 
Filipino government from that postwar period is what is called 
the five points. So it was understood that there were many 
people that served, but whether it was qualifying service is 
what was the determination. And those five points, that type of 
unit that--what is called maintenance, whether it was under 
Government--under U.S. Government control; whether it was 
organized in a manner consistent with the Filipino army, or the 
U.S. Army; whether it had adequate controls and measures in 
place; continuity of service as well as being full-time.
    So while there are people who clearly, patriotic citizens 
who performed wonderfully, that did not rise to the level and 
make the threshold of qualifying service.
    Mr. Runyan. Thank you. Mr. Flohr, thank you for coming 
today and for your testimony. Your testimony noted that the VA 
is legally bound to adjudicate eligibility for the FVEC fund 
according to the military service department determination. The 
American Coalition for Filipino Veterans notes that the VA has 
the authority under Title 38 U.S. Code, to determine 
eligibility using evidence submitted by claimants.
    Could you respond because I think it is an important point 
of contention that the VA would request that the Army verify 
the authenticity of relevant documents that are submitted by a 
claimant?
    Mr. Flohr. Thank you, Mr. Chairman. The basic process for 
determining eligibility for any veteran's claim when we receive 
a claim, whether it be a U.S. veteran, or a Philippine veteran, 
is eligible, qualifying service; someone who served honorably, 
was discharged under other than dishonorable conditions, and 
had valid service. If a U.S. veteran files a claim, does not 
have a DD-214 they submit with their claim and we are not able 
to find that on line we will go to the service department and 
ask for verification of service. Same is true in Philippine 
cases with an important difference being that the Philippines 
is a long way away, and the records of service during the 
period of time of World War II, either in the Philippine army 
or as a guerrilla, as General MacEwen stated, was basically 
adjudicated after the war, and those records are with the Army 
and then were transferred to NPRC. So when we need to verify 
service, that is where we are required by our own regulations 
to go.
    Mr. Runyan. Thank you. Mr. Pratt, again, thank you for 
providing your testimony today. As you likely know, about 54 
percent of the claims for compensation were denied by the VA. 
Many were denied because they did not qualify for the fund 
under the law as it was written and the VA testimony noted that 
thousands of others were duplicate claims. However, in some 
cases, the VA denied the benefit based on the NPRC's inability 
to find the name in a roster, perhaps due to spelling 
differences and incorrect or assumed American names. Later 
though, the veteran found the records confirming the service to 
the United States by doing their own research or using an 
advocate to conduct research at the NPRC. What measures has the 
NPRC taken to mitigate the possible errors of things like this 
happening?
    Mr. Pratt. Thank you, Mr. Chairman. What we have done in 
the training that we use with our technicians is that we 
recognize that there are a lot of name variations that occurred 
as the information was transcribed in the record when the 
guerrilla or the Philippine army member filled out the claim 
folder. And so we actually have the same technician that 
responds to the correspondence also do the searching for the 
records, and we have cross-references in the file system to 
ensure that that information has been accurately captured and 
looked up. The other thing that we have done since the 
interagency working group is, we have a second look. Any 
negative response that is done, a second technician takes a 
look at that to ensure that they have accurately done the 
cross-referencing in terms of the alphabet and they have done 
the work before we provide a negative response to the VA.
    Mr. Runyan. Thank you, Mr. Pratt. With that, I will yield 
to the ranking member, Ms. Titus.
    Ms. Titus. Thank you. Mr. Flohr, I would ask you about the 
appeals process. If a Filipino veteran applies for some of the 
benefits and is denied because maybe they can't find the 
records or some of the problems described by the chairman, what 
is the appeal process? How can they appeal? Do you give enough 
information to the veteran so they know how to appeal? Do you 
think the time period for both application and appeal is long 
enough? And are you getting a lot of appeals which might 
indicate there is some problem?
    Mr. Flohr. Thank you for your question, Ranking Member 
Titus. The appeal process is set up through our regulations and 
in statute and is similar for claims from any veteran, or 
surviving spouse, or any other eligible person who is denied a 
benefit. It starts with simply a letter stating, I don't agree 
with your decision. At that point, we recognize that as what we 
call a Notice of Disagreement. And we are by law then required 
to send a statement of the case, which provides a history of 
the claim from the time we received it, the actions we took in 
determining the claim and making the decision, and then we send 
what is--we ask them to complete a Form 1-9 included with a 
statement of the case. The 1-9 is a certification to the Board 
of Veterans' Appeals. They have to complete that, return it to 
us within a certain time like a year, I believe. And then it 
gets sent to the Board of Veterans Appeals and it goes on their 
docket.
    And that is the basic process for all claims. But we do 
send them notice when we deny a claim. We provide them with a 
form. If they want to complete a form and fill it out and send 
it back to us, or as I said, they could just send us a letter 
saying they disagree. So they do get information about the 
appeal process, yes.
    Ms. Titus. And when the Board of Appeals considers their 
case, do they just look at the issue of whether or not they 
were on that original list that dates back to 1948, or can 
additional evidence be presented about the individual's 
service?
    Mr. Flohr. That is a good question. The Board of Veterans' 
Appeals, unlike, say, the Court Appeals for veterans claims 
which simply reviews the evidence before VA when they made a 
determination. The Board of Veterans' Appeals has a de novo 
review authority. They can return a file or an appeal to a 
regional office asking for additional information. In some 
cases maybe a medical opinion or an examination, or to go out 
to a physician, a private physician, and get evidence, or they 
can do that themselves and sometimes they do. And there was a 
law recently, a regulation change which allowed the Board to 
consider in the first instance new evidence submitted directly 
to the Board as part of an appeal.
    So they can. They are allowed to submit new evidence, get 
new evidence, and review it, yes.
    Ms. Titus. And how long does this usually take, because we 
are talking about people who are in their 90s.
    Mr. Flohr. The Board decisions, I don't have the numbers 
right immediately as to how long it takes on average. It is 
fairly lengthy, particularly if someone requests to appear 
before the Board in a hearing. That takes time to schedule. And 
I know while our Manila regional office is expediting and has 
been expediting these claims since day one, the Board is 
statutorily required to review appeals based on the date they 
are received at the Board. Now, whether they are expediting any 
of these appeals, I do not know at this time. However, I could 
find that out.
    Ms. Titus. That would be something we ought to look into 
and work on that. I appreciate that. Thank you.
    Mr. Flohr. Okay.
    Ms. Titus. And General, let me ask you, are there any 
documents classified or otherwise that the Army holds that 
might help some of the remaining veterans with their appeals, 
and deal with the whole transparency issue, and the general 
lack of trust?
    General MacEwen. Ma'am, thank you for that question. I 
think that everything related to the Filipino veterans claims 
process has been declassified. Whether there are other 
classified information, I wouldn't know. But all of the stuff 
that was in the Adjutant General's responsibility in 1948 that 
is continued in under our authority, has been declassified.
    Ms. Titus. And the person who is trying to get information 
about their own individual case can access that online, or 
through the Archives?
    Mr. Pratt. Ma'am, there are really two groups of records. 
The first group of records that is actually--that I mentioned 
in my testimony that is available to the public, really is 
about the process that the Army went through in adjudicating to 
ensure that these people are on a roster or not on a roster. 
The claim folders that we maintain for the Army are not open to 
the public. However, since the White House working group, if 
there is an individual that wants to see their claim folder, 
what happens is they write us and then we, in turn, talk to the 
Army because they are considered organizational records for the 
Army and they are still in the Army's legal custody, then we 
would, if the Army gives approval, send those to the veteran. 
And that has happened on several occasions since that time and 
we want to be very transparent in the process and let the 
veterans understand the documents that we are looking through 
to make those decisions.
    Ms. Titus. So that process is not a problem. If I ask for 
my record, I could get it?
    Mr. Pratt. Yes, ma'am. In fact, I talked to a group this 
morning and offered that to them. They just need to write us a 
letter and we will be happy to work with the Army to get that 
information to them.
    General MacEwen. And ma'am, we are committed to allowing 
those on a case-by-case basis.
    Ms. Titus. Thank you. Thank you, Mr. Chairman.
    Mr. Runyan. Thank you, Ms. Titus. With that, I will 
recognize Dr. Heck.
    Mr. Heck. Thank you, Mr. Chair, for holding the hearing and 
thank you panel members for coming back and providing 
additional information. A couple of things, facts that I just 
want to make sure are clear. Mr. Flohr, you stated that there 
is $56.4 million remaining in the FVEC account, the 
appropriated funds. That is correct? That is the number that is 
there? But there has been some discussion amongst committees 
and staff members that there really is no money in the account. 
So there is $56.4 million there?
    Mr. Flohr. That is what I was provided, yes.
    Mr. Heck. Okay, and you also stated that there was 23,826 
FVEC claims that had not been granted, and then you said, but 
some may be due to dependents, or surviving spouses, or those 
that--other than the veteran. Do you know exactly how many of 
those claims that were denied were specifically filed by the 
veteran themselves, not a dupe, or a surviving spouse or a 
dependent?
    Mr. Flohr. Congressman, I don't know exactly the number. 
Manila did not actually start tracking these until the second 
year, or after 2010.
    Mr. Heck. Okay.
    Mr. Flohr. So a lot of them were denied. There was 9,800 
that have been denied because they had no valid military 
service, failure to prosecute was 1,296, previous forfeitures, 
148.
    Mr. Heck. But we don't know how many of those were actually 
filed by the veteran versus a family member, or----
    Mr. Flohr. I do not know, but I will attempt to talk with 
our folks in Manila to see if they can provide me at least a 
good estimate.
    Mr. Heck. Okay. You know, I would ask then just 
hypothetically, do you think it would be unreasonable to 
believe that in 1948, in postwar Philippines, after a country 
has been ravaged by combat for 4 years, that there could 
possibly be somebody who had qualified service who didn't make 
it on the list? Unreasonable to think that that couldn't 
happen?
    Mr. Flohr. Not to me, no.
    Mr. Heck. Okay. So I would guess, you know, with the 
remaining funds that are appropriated and if everybody--if we 
were to reopen the period, and everyone that re-applied would 
get the maximum benefit of $15,000, that would allow about 
3,760 more claims to be paid. I would ask each of you, do you 
think it would be unreasonable to approach this, to reopen the 
period for another year, to allow it only within the amount of 
appropriated funds, but to accept an AGO-23 as proof of service 
to be able to pay a claim? Because many of those Filipino vets 
that are being denied have an AGO-23, the Philippine form that 
has been certified, that was developed--I mean, this one is 
stamped 1948. I don't think we are going to find many 90 to 
100-year old Filipino veterans trying to come in with forged 
documents. Do you believe that reopening the period within the 
confines of appropriated funds for 1 year and taking the AGO-23 
as proof of service would be unreasonable? Mr. Flohr?
    Mr. Flohr. I wouldn't say it would be unreasonable. I think 
we would go through some of the same things we did in 2009, 
2010, when we would get a lot of claims from children.
    Mr. Heck. Understanding that, but if a veteran, if a 
Filipino veteran was alive today and reopened his claim, and 
had the AGO-23 that was contemporaneously certified back in 
1948, I mean--I understand that we can't go into the surviving 
spouse issue or child filing on behalf--but for those veterans 
that are still alive.
    Mr. Flohr. For VA, for my purposes, I would be glad to work 
with the Department of the Army and NPRC to determine if that 
would be acceptable, yes.
    Mr. Heck. General MacEwen, your opinion on that?
    General MacEwen. Sir, my opinion is I am not so sure that 
that is fair overall in that determinations that were made in 
1948 and determinations that have been made for others, and the 
book was, you know, frankly closed. I mean, in 1949, 9 August 
1949, the President, the President of the United States wrote a 
letter to the president of the Philippines and said, the 
program is definitely closed. We have concluded the 
verification process.
    And while there may be some that had service, whether it 
rose to the level of qualifying service would be the part that 
would concern me. I don't doubt that there are plenty of people 
that served honorably, patriotically, but whether it was 
qualifying service.
    Mr. Heck. But wouldn't that be reflected on their AGO-23?
    General MacEwen. Sir, there may be other information that 
was available to that investigation committee at the time that 
would make that not valid.
    Mr. Heck. Well, I appreciate that. Look, in my District, we 
have the group called The Mighty Five. Unfortunately, three of 
them, Augusto Oppus, Romeo Barreras and Silverio Cuaresma have 
all died. Mr. Cuaresma was 100 years old. I have two left, 
Edilberto Briones and Anastacio Sumajit. I am hoping that we 
get some resolution on their behalf soon. Thank you, Mr. Chair, 
I yield back.
    Mr. Runyan. Thank you, Dr. Heck. I have one more question 
kind of addressed--if each of you at the panel could touch on 
it, and after hearing your testimony and going through the 
statements that were submitted, based on your preparation for 
the hearing today and your expertise in all of your areas, do 
you have any recommendations either in your collaboration, 
communication, regulation, or even perhaps legislation that you 
believe would improve the outcomes in the process, in the 
administration of the program? Mr. Flohr, start with you.
    Mr. Flohr. Mr. Chairman, I am not, off the top of my head, 
I am not sure that I know of what could be done differently 
than what we do now. As has been stated, the Department of the 
Army, and the NPRC as custodian of the records, they were 
complete as of 1948 and whether or not--I think it would take 
legislation, perhaps, to change the validity of service. We are 
bound by our regulations and our statutes for determining 
eligibility, and for Philippine claimants, it is through the 
Department of the Army.
    Mr. Runyan. General.
    General MacEwen. Sir, I have thought about this quite a bit 
because this is the second time that I have been here to 
discuss this, and as I have prepped for it, I think that 
second-guessing those decisions made by those who conducted the 
investigations, had firsthand knowledge and ability, and made 
this careful approval, went through a very deliberative 
process, would probably be counterproductive. So I don't see 
anything along that line. I think the collaboration among the 
agencies has improved, especially since the White House working 
group that you discussed in your opening statement. But I don't 
see anything additional that would be helpful, overall, from my 
view.
    Mr. Runyan. Mr. Pratt, do you have anything to add?
    Mr. Pratt. Just one thing, Mr. Chairman. We have been 
working collaboratively with the VA and the Army within the 
current process to provide greater transparency to the veterans 
and to improve the speed at which we approve the process. So 
under the existing process, I think we will continue to work 
with the Army and with the VA to provide better information to 
the veterans so they can understand why these decisions were 
made and that will help provide a little bit of better 
understanding of the program, and, certainly, if the program 
changes because of legislation, we are certainly prepared to 
make an adjustment so that we can continue to serve the 
veterans.
    Mr. Runyan. Thank you. Any more?
    Ms. Titus. Yes.
    Mr. Runyan. Sure. Yield to the ranking member.
    Ms. Titus. Thank you, Mr. Chairman. We all want this system 
to be fair. There is no question about that. You said it, 
General. This committee has been devoted to providing benefits 
to our veterans who have earned them, and deserve them. And 
that is the least that we can do. And we want that to include 
our Filipino veterans as well. So if we can just focus on 
getting the information out there so that there is transparency 
and there is a better understanding and deal with the trust 
issue, if we make time sensitivity something that we are aware 
of since these people are in their 90s, and we want to do right 
by them before they pass on, and if the appeal process works 
fairly, I think those are all keys to making this work under 
existing provisions and existing statutes so that we can be 
fair to the people that my colleague mentioned who live in 
Nevada and beyond. And I appreciate you all working with us to 
make that happen. Thank you, Mr. Chairman.
    Mr. Runyan. Dr. Heck, anything further?
    Mr. Heck. No.
    Mr. Runyan. Again, I want to thank the witnesses. 
Appreciate your attendance today. Your complete and written 
statements will be entered into the hearing record. We 
appreciate your time and attention that went into preparing 
your remarks for today. I ask unanimous consent that all 
members have five legislative days to revise and extend their 
remarks and include any extraneous material. Hearing no 
objection, so ordered. And this hearing is now adjourned.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]

                                 <F-dash>

                                APPENDIX

                    Prepared Statement of Brad Flohr

    Chairman Runyan, Ranking Member Titus, and Subcommittee Members, 
thank you for the opportunity to provide an update on the Department of 
Veterans Affairs' (VA) administration of the Filipino Veterans Equity 
Compensation (FVEC) fund.

Overview

    To remedy what some saw as an injustice caused by the limited VA 
benefits available to Filipino World War II Veterans, Congress 
established the FVEC Fund through the enactment of The American 
Recovery and Reinvestment Act of 2009 (Recovery Act). The FVEC 
provision authorized a one-time payment of $15,000 for qualified U.S. 
citizens and $9,000 for qualified non-U.S. citizens who filed within 
the one-year filing deadline. To qualify for the FVEC payment, an 
individual must have served before July 1, 1946, in the Philippine 
Commonwealth Army, including recognized guerrillas, or in the New 
Philippine Scouts. In determining whether claimants are eligible for 
any VA benefit, including FVEC, VA must have verification from the U.S. 
military service department as to whether the claimant has qualifying 
service in accordance with 38 C.F.R. Sec.  3.203.
    Less than two months after the law was passed, VA established an 
adjudication process, payment system, accounting system, and payment 
delivery system to successfully issue the first FVEC payment on April 
8, 2009. VA conducted numerous successful outreach programs to inform 
Veterans and their families about this benefit. This outreach continued 
until February 16, 2010, the end of the filing period. VA's Manila RO 
established a dedicated team of employees who solely processed FVEC 
claims. The Manila RO also sent letters to all Veterans found eligible 
for the FVEC benefit advising them of their potential eligibility for 
VA disability compensation benefits. Numerous Filipino World War II 
Veterans have subsequently been found eligible for recurring monthly 
disability compensation payments.

Update on Disposition of Claims Received

    The Manila RO received 42,755 claims for FVEC between February 2009 
and February 2010. As of October 31, 2014, of the 42,755 claims 
received, the Manila RO granted 18,929 FVEC payments, totaling 
$225,668,204. Currently there are 23,826 FVEC claims that have not been 
granted due to ineligibility. All original claims for FVEC have 
received a decision, but there are currently 15 reopened claims for 
FVEC and 10 appeals pending with VBA. Approximately 32 appeals of FVEC 
decisions are pending with the Board of Veterans' Appeals, and another 
9 appeals are before the United States Court of Appeals for Veterans 
Claims. If all individuals with reopened claims or pending appeals are 
found to be eligible for the FVEC payment, the Manila Regional Office 
would pay additional funds of approximately $1.0 million out of the 
FVEC fund. This assumes that all reopened and appealed claims, if 
granted, would be granted the maximum $15,000. In addition, $17.1 
million has been returned to the Treasury for returned checks, which 
result when a Veteran dies without a surviving spouse claimant. A total 
of $56.4 million remains in the FVEC appropriation.
    The primary reason for denial of claims was the inability of these 
individuals to establish qualifying service required by section 1002(d) 
of the Recovery Act. The denied claimants included a variety of 
individuals, who exercised their right to make an application to VA. 
They included children, grandchildren, and other family members of 
alleged Veterans, widows of long-deceased alleged Veterans, and 
thousands of duplicate claims.
    In October 2012, the White House Initiative on Asian Americans and 
Pacific Islanders, in collaboration with the Office of Management and 
Budget and the Domestic Policy Council, created the Filipino Veterans 
Equity Compensation Fund Interagency Working Group (IWG) comprised of 
representatives of the Department of Veterans Affairs, the Department 
of Defense, and the National Archives and Record Administration to 
address the concerns of Filipino Veterans who believe that their claims 
were improperly denied, or that they did not receive a satisfactory 
explanation as to why their claims were denied.
    The IWG's goal was to increase transparency and accelerate 
processing of claims within the existing framework. Some highlights of 
the IWG's efforts include:

        <bullet> VA created a special team dedicated to FVEC appeals 
        and obtained copies of certain Philippine Army documents from 
        the Adjutant General of the Philippines.
        <bullet> The Army developed more detailed response letters for 
        requests for service determination that explain why an 
        application was denied.
        <bullet> NARA decreased the response time for service 
        determination requests to 10 days or less.


Process for Verifying/Determining Service

    In determining whether a claimant is eligible for a VA benefit, 
including FVEC, VA is legally bound under its regulations by military 
service department determinations as to service [38 C.F.R. Sec.  
3.203(a), (c)]. Currently, unless VA has a genuine document issued by a 
U.S. military service department containing needed information to 
establish eligibility, VA regulations, applicable to all claimants, 
require that VA request verification of military service from the 
appropriate military service department. For claims based on Philippine 
Service in World War II, the U.S. Army is the relevant military service 
department. VA requests verification from the National Personnel 
Records Center (NPRC) which, since 1998, has acted as the custodian of 
the U.S. Army's collection of Philippine Army and guerrilla records.
    This concludes my testimony, Mr. Chairman. I would be happy to 
address any questions you or the other Members of the Subcommittee may 
have.

                                 <F-dash>

                 Prepared Statement of David K. MacEwen

    Chairman Runyan, Ranking Member Titus, Distinguished Members of 
this Committee, I thank you once again for the opportunity to appear 
before you on behalf of America's Army to discuss the Filipino Army 
Veterans verification process. I sat before the Oversight and 
Investigations Subcommittee of the House Armed Services Committee a few 
months ago, in June, providing similar testimony. As previously 
mentioned in prior testimony, this issue is very personal for me 
because my father served in the Philippines during World War II. 
Therefore ensuring accuracy and adequacy in the verification process of 
our Filipino Army Veterans is important to me. I sit before you today, 
as has been the case with Army Adjutants General over many years, with 
great confidence knowing that the Army's process of verifying Filipino 
Army service is sound and adequate.
    For the three years post WWII, 1945-1948, the Filipino government 
worked in conjunction with the U.S. Army to establish Guerilla and 
Philippine Army unit rosters and to capture relevant service data. This 
data is currently located in the National Personnel Records Center, 
National Archives Records Administration. If you visit the National 
Personnel Records Center, you will find thousands, almost 10,000 cubic 
feet, of claim folders which are Philippine Army and Guerilla claim 
files. You will find cabinets of Finding Aids, which is approximately 
1.3 million cards; 30 cubic feet of various Philippine Army rosters and 
records, and 15 cubic feet of Guerilla rosters. I could go on, as the 
list continues, but I believe you can imagine the enormity of the 
amount of information in these files.
    In 1998, the Army transferred the Filipino Veteran service 
verification process to the National Personnel Records Center. With 
this transfer, we obtained efficiencies and improved timeliness of 
verification. Although the National Personnel Records Center actually 
executes the hands-on work to verify service, they do so in accordance 
with procedural guidance established and maintained by the Army.
    Since the signing of the 2009 American Investment Recovery Act, the 
Army has supported the Department of Veterans Affairs role in 
compensating WWII Filipino Veterans by verifying Filipino service in 
the Philippines based on the very same process for service verification 
established in 1948 in conjunction with the Philippine Government.
    When I use the term ``verify,'' I don't use it arbitrarily. 
``Verify'' is the most appropriate term because the service 
determinations have already been made. Although it is a fairly simple 
process to review the records to see what determination was made, the 
process that got us to that point was very complex. The people on the 
ground after the war, both American and Filipino, conducted years of 
research, interviewing Commanders and leaders at various organizational 
levels, and gathered and stored massive amounts of authoritative 
documents. They turned over every stone possible and imaginable to 
leave us with the system and documents we use today, with the 
understanding, and somehow the foresight, to know that we would not be 
able to make fair, adequate, and auditable service determinations today 
without them.
    By the end of the war, of the nearly 1.3 million claims (requests 
for recognition of Filipino service) reviewed, the Army, through its 
collaborative effort with the Philippine Government, recognized and 
approved only 260,000. I ask that you keep three points in mind. First, 
accepted historical documentation makes it clear that Filipino service 
within recognized units did not approach a figure anywhere near the 1.3 
million claims submitted. Second, these determinations were made by the 
people on the ground at that time, only after extensive research was 
completed, and unfortunately, a majority of the time they were 
presented with the very unpleasant task of denying a claim, the same as 
we must do today. Third, claims were denied then, as they are today, 
for very legitimate and justifiable reasons. Changing the service 
verification process by accepting non-verifiable service documentation 
for Philippine Army and Guerilla Veterans may result in a significant 
number of faulty service verifications.
    The Army set specific criteria and a threshold for what we would 
consider as service. While many Filipinos feel that they served, they 
did not meet or reach the threshold for service. Using the specified 
criteria, the determinations were made. Today, it's just a matter of us 
reviewing the record and retrieving the determination. Second guessing 
what is already in the record is neither reasonable nor feasible, as we 
cannot conduct better research than what was conducted in the years 
immediately following the war, by the individuals actually on the 
ground at the time. Today, the process is fairly simple:
    1) The Department of Veterans' Affairs submits Veterans' Affairs 
(VA) Form 3101 or VA Form 9 to the National Personnel Records Center, 
who retrieves and authenticates the service determination from the 
archived files. If sufficient documentation is not found in the file, 
the National Personnel Records Center works with the Department of 
Veterans Affairs, who in turn works with the Philippine government, to 
obtain additional information. Once the National Personnel Records 
Center has matched evidence with unit rosters and is able to 
authenticate service, they complete National Personnel Records Center 
Test Form 02-03 and forward it to the Department of Veterans Affairs. 
These rosters and reference lists serve only as a quick reference to 
what is actually in more than 1,600 boxes of well-documented case files 
and supporting material stored in the National Archives building in 
College Park, Maryland. If unable to match evidence with unit rosters, 
the National Personnel Records Center annotates the VA Form 3101 
accordingly and returns it to the Department of Veterans' Affairs. 
Although the National Personnel Records Center executes this function, 
they follow the Army's procedures and program guidelines, and do not 
deviate from U.S. Army policy.
    2) The National Personnel Records Center informs the Department of 
Veterans' Affairs of the final determination.
    3) The Department of Veterans' Affairs delivers or denies the 
benefit.
    The National Personnel Records Center follows the same rigorous 
process established by the Army to ensure that no claimant is unfairly 
excluded from earned benefits by denying creditable service, and that 
all who have served are properly recognized for their contributions to 
U.S. Army efforts in WWII and to the Nation.
    The Army has long-standing and close working relationships with 
both the National Personnel Records Center and the Department of 
Veterans' Affairs, and together we are committed to sustaining an 
efficient claims processing program for the Filipino Veterans.
    The issue of service verification has remained constant over the 
years. The Army has spent significant time and resources to continually 
review our service verification policy. Though we have complete 
confidence in the final service determinations already made, as with 
any other Army program, a review or study is periodically conducted to 
ensure that we are in compliance with the spirit and letter of 
applicable laws and regulations.
    As published on the White House website, in October 2012, the White 
House Initiative on Asian Americans and Pacific Islanders, in 
collaboration with the Office of Management and Budget and the Domestic 
Policy Council, created the Filipino Veterans Equity Compensation Fund 
Interagency Working Group comprised of the Department of Veterans 
Affairs, the Department of Defense, and the National Archives and 
Record Administration. The working group was tasked with analyzing the 
process faced by Filipino veterans in demonstrating eligibility for 
compensation in order to ensure that all applications received thorough 
and fair review.
    The working group increased transparency and concluded that, after 
a thorough accounting of the process to verify valid military service 
for Filipino World War II veterans, the process is sound. All 
organizations involved in the verification process were brought 
together to improve the process from start to finish. In addition to 
clarifying the claims process, the working group digitized and made 
available online for the first time a report titled, U.S. Army 
Recognition Program of Philippine Guerrillas. This crucial report 
explains how the recognition process was developed at the close of 
World War II, and, most importantly, the Army's careful reasoning 
behind the current policies on service verification. I will highlight 
some of the Army's more significant results of that Interagency Working 
Group:
    The Army reviewed and revalidated the retrieval and authentication 
procedures used by the National Personnel Records Center, and made the 
procedures electronically available.
    The Army recognized the need to return to more detailed responses 
to requests for service determinations. As a result, we fielded several 
more specific response letters which state: the individual's service 
authentication, whether or not the individual's claims folder and/or 
corresponding unit rosters were located, and what the next appropriate 
steps are for individuals with questions regarding service 
authentication.
    The Army placed a priority on requests for service determinations 
received from the Department of Veterans Affairs for Filipino veterans, 
and also asked the National Personnel Records Center to ensure the 
requests receive prompt servicing.
    Over the years, the Department of the Army has been requested to 
establish a different process for Filipino Veterans to prove their 
service. The facts are that we have a process; it is adequate and it is 
sound. We will continue to work closely with the National Personnel 
Records Center and the Department of Veterans' Affairs to provide the 
best possible service to our Filipino Veterans. The Army is well-
positioned and committed to meeting the claims processing needs for 
Filipino Veterans.
    Chairman Runyan, Ranking Member Titus, and members of the 
subcommittee, we wish to thank all of you for your continued support, 
which has been vital in sustaining our All-Volunteer Army through an 
unprecedented period of continuous combat operations, and which will 
continue to be vital to ensure the future of our Army. I look forward 
to answering your questions today.

                                 <F-dash>

                   Prepared Statement of Kevin Pratt

    Good morning Chairman Runyan, Ranking Member Titus, and members of 
the Subcommittee. Thank you for calling this hearing and for your 
continuing efforts to recognize the extraordinary contributions of 
Filipino veterans, including those who served in guerrilla units, for 
the service they provided in support of the United States during World 
War II. I am delivering testimony on behalf of the National Personnel 
Records Center (NPRC or Center) that is similar to a statement 
delivered by the NPRC Director, Scott Levins, in a hearing before the 
House Armed Services Committee earlier this year. As one of many 
veterans that work at the NPRC, I am pleased to appear before you today 
to discuss the work that the Center does to serve those who have 
served. We appreciate your interest in this important work.
    The NPRC is an office of the National Archives and Records 
Administration (NARA). Located in two facilities in the St. Louis, 
Missouri area, the Center stores and services over 4 million cubic feet 
of military and civilian personnel, medical and related records dating 
back to the Spanish-American War.

History of NPRC's Military Records Program

    In the mid 1950s, the Department of Defense (DoD) constructed the 
Military Personnel Records Center in Overland, Missouri. In the years 
that followed, military personnel, medical, and organizational records 
of each military service department were relocated to this facility. In 
1960, the Center's functions were consolidated and transferred to the 
General Services Administration (GSA), to be managed by the National 
Archives, which at that time was a part of GSA. The Archives managed 
the Center as a single program, leveraging economies of scale to 
improve efficiency and offering a central point of access for military 
service records.
    In spring 2011, the NPRC began moving its military records into a 
new building designed to meet updated facility standards for storing 
permanent Federal records. The facility is located in North St. Louis 
County, approximately 15 miles from the Overland location. The 
relocation of records into the new facility was completed in 2012.
    NPRC holds approximately 60 million official military personnel 
files. Its holdings also include service treatment records, clinical 
records from military medical treatment facilities, auxiliary records 
such as pay vouchers and service name indexes, and organizational 
records such as morning reports and unit rosters. NPRC stores these 
records in both textual and micrographic formats.
    NPRC's military records facility receives approximately 4,000 
correspondence requests each day from veterans, their next of kin, 
various Federal agencies, members of Congress, the media, and other 
stakeholders. Nearly half of these requests come from veterans seeking 
a copy of their separation statement (the DD-214) because they need it 
to pursue a benefit. The Center responds to over 90% of these types of 
requests in ten business days or less.
    In addition to the correspondence work discussed above, the Center 
normally receives between 5,000 and 10,000 requests each week from the 
VA and other Federal agencies requiring the temporary loan of original 
records. These requests are normally serviced within 2-3 business days.

Philippine Army Records

    Included in the NPRC's holdings are claim folders pertaining to 
Filipino nationals that were adjudicated by the U.S. Army after World 
War II, and unit rosters created by the U.S. Army in conjunction with 
its post-war recognition program. In 1998 NARA entered into an 
agreement with the Department of the Army to accept the physical 
transfer of these records though they remain in the legal custody of 
the Department of the Army. Also as part of the agreement, beginning in 
FY 1999, NPRC assumed the responsibility for referencing these records 
consistent with procedures previously established by the Army. In doing 
so, NPRC reviews its holdings to authenticate service determinations 
previously made by the Department of the Army. NPRC does this by 
examining claim folders, finding aids, and a variety of rosters 
compiled by the Army during its post-war recognition program. Most 
often, this is done in response to requests from the Department of 
Veterans Affairs regarding compensation claims. Recognizing the urgency 
of these requests, NPRC strives to respond to these requests in ten 
business days or less.
    The technical instructions applied by NPRC technicians in 
referencing these records and responding to such requests have been 
furnished to the American Coalition for Filipino Veterans and has been 
posted online for public viewing at http://www.archives.gov/st-louis/
military-personnel/memo-1865125.html. The instructions are consistent 
with the longstanding policies and practices of the Department of the 
Army and were applied by Army staff prior to the transfer of the 
reference function to NPRC. On multiple occasions since the 
establishment of the Filipino Veterans Equity Compensation Fund, 
officials from the Department of the Army have visited NPRC, reviewed 
its technical instructions, examined its work process, and confirmed 
that NPRC was providing reference services consistent with the long 
established policies and practices of the Department of the Army.
    NARA has also preserved records of historical value documenting 
events that transpired in the Philippines during and after World War 
II. Included are records describing actions taken by the U.S. Army to 
recognize the service of Filipino nationals who supported the United 
States Army Forces in the Far East, including those who served in 
guerrilla units. These records are available for public review at the 
National Archives building in College Park, Maryland.

Conclusion

    NARA is pleased to work with the Subcommittee, the Army, the VA, 
and other stakeholders to ensure Filipino veterans, including those who 
served in recognized guerrilla units, are recognized for their 
extraordinary service in support of the United States during World War 
II. We have briefed interested congressional staff and other 
stakeholders on NARA's role in this process, we actively participated 
in an Interagency Working Group established by the White House to 
analyze the process, and we have shared information with Filipino 
veterans advocacy groups to help provide greater understanding of the 
reference process we employ to authenticate service determinations made 
by the Department of the Army. Working with the Department of the Army, 
we modified our response letters to provide more specific details 
regarding our reference results in instances where we are unable to 
positively authenticate a prior service determination, and, at the 
suggestion of the White House Interagency Working Group, we digitized 
and posted online a report titled, ``U.S. Army Recognition Program of 
Philippine Guerrillas.'' This report, which can be found at http://
research.archives.gov/description/6921767, explains how the recognition 
process was developed at the close of World War II.
    We again extend our thanks to the Subcommittee for expressing such 
great interest in the role that NPRC provides in this important 
process. I am happy to answer any questions you may have.

                                 <F-dash>

                             FOR THE RECORD

    American Coalition for Filipino Veterans, Inc.
    867 North Madison St., Arlington, VA 22205
    Phone: 202 246-1998 Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="324741545b5e5b425b5c5d4457465740535c4172555f535b5e1c515d5f">[email&#160;protected]</a> Web: 
usfilvets.tripod.com

    VA Secretary's Duty to Comply With FVEC Law, Congressional 
Directives and Court Decisions By:

    Eric Lachica, ACFV Executive Director

    On behalf of our officers and members of the American Coalition for 
Filipino Veterans, a national nonprofit advocacy organization, may I 
extend our deepest appreciation to your subcommittee for holding this 
timely hearing on the adequacy of the process in verifying eligibility 
of claimants for the Filipino Veterans Equity Compensation (FVEC) 
benefit.
    It is our coalition's view that the VA Secretary and his department 
FAILED to adequately comply with the FVEC law and congressional 
directives in addressing the 4,554 appeals of elderly Filipino veteran 
claimants before the VA and the US Court of Appeals on the denials of 
recognition of their US service in World War II.
    The 2009 FVEC law is very clear: ``The Secretary may make a payment 
from the compensation fund to an eligible person who . . . submits to 
the Secretary a claim for benefits . . . [for those who] served before 
July 1, 1946, in the organized military forces of the Government of the 
Commonwealth of the Philippines, while such forces were in the service 
of the Armed Forces of the United States.'' http://www.gpo.gov/fdsys/
pkg/PLAW-111publ5/html/PLAW-111publ5.htm
    There are FIVE major shortcomings of the FVEC eligibility 
determination process as administered by the VA Secretary.
    First: Former VA Sec. Shinseki erred and should have followed the 
congressional directive of the FVEC law and the FY 2014 Appropriations 
Act (H.R. 2216) that ``directed the VA to consider ALL forms of 
evidence of service and not just those originally considered.'' (My 
emphasis)
    Moreover, the House Appropriations Committee stated, it ``looks 
forward to VA execution of this directive.'' (House Appropriations 
Committee Report; H.R. 4416 passed April 30, 2014)
    Second: The former VA Secretary relied solely on the National 
Personnel Record Center (NPRC) of the National Archives to verify and 
determine US Army military service.
    The recent August 26, 2014 decision and findings by a three-judge 
panel of the U.S. Court of Appeals on Veteran Claims further clarified 
this issue. The court ruled against VA Secretary's denial of the appeal 
of Mrs. Juliet T. Tagupa, a Filipino veteran's widow, for solely 
relying on the NPRC to determine US Army service of her husband. The 
court remanded to the VA to directly ``seek verification service from 
the Department of the Army.'' They found the NPRC was a ``reference 
service'' and not a ``service department'' of the US Army to issue 
determinations. (pages 8 ` 12 http://law.justia.com/cases/federal/
appellate-courts/cavc/11-3575/11-3575-2014-08-26.html
    Third: The former VA Secretary failed in his ``duty to assist a 
claimant in obtaining evidence necessary to substantiate a claim'' of 
Mrs. Tagupa in particular (and to the thousands of FVEC claimants). 
``This duty includes making reasonable efforts to obtain all records 
held by a governmental entity that are relevant . .. if the claimant 
provides the Secretary information sufficient to locate such records,'' 
the above Appeals Court panel cited the relevant Code of Federal 
Regulations. Moreover, the VA Secretary and the VA Manila Regional 
Office did not ``attempt to seek alternative means of verifying 
service.'' (page 8-9).
    The Court also listed several possible sources for the VA. Certain 
Philippine Commonwealth Army records and their World War II guerrilla 
service rosters, honorable discharge documents or certifications should 
have been accepted as sufficient proof.
    Fourth: Former VA Secretary Shinseki failed to exercise 
administrative discretion under his FVEC authority to accept genuine WW 
II honorable service documentation of the Philippine Commonwealth Army 
and the USAFFE guerrilla service, as presented by the veteran 
claimants. The above Appeals Court cited the ``plain language'' of the 
VA regulation that ``uses the term `may' and thus give the VA 
discretion to determine whether the evidence submitted to establish 
service is itself sufficient without additional service verification.'' 
(page 6)
    Fifth: The former VA Secretary and the VA Board of Appeals failed 
to comply with the VA Adjudication Procedures in their manual. They did 
not consider the possibility of ``Unrecognized guerrilla service and 
'that this is service ' under a recognized commissioned officer, who 
was a former member of the U.S. Armed Forces or the Commonwealth 
Army','' as pointed out by the Appeals Court panel in their decision. 
(p. 12, my emphasis)
    Solution: In light of above failed actions, we respectfully urge 
the House VA Committee to remind the new VA Secretary Robert McDonald 
to comply with the FVEC law, congressional directives and Court of 
Appeals decisions. FVEC compensation benefits should be granted to 
deserving claimants based on alternative documents provided by other 
U.S. official government sources including the Philippine Government's 
Adjutant General's Office who have PH Commonwealth Army records, 
authenticated WWII guerrilla rosters and individual letters of 
recognition.
    In an earlier precedent in 2011, the VA Board of Appeals approved 
the award of FVEC benefits to Gaudencio Pablo, a Filipino WWII 
guerrilla, who was previously denied official recognition by the NPRC 
in St. Louis MO. He provided copies of US Army documents he found in 
the National Archives College Park Maryland. (No. 10-17 727 BVA 
decision January 31, 2011).
    If needed to expedite the eligibility review, the VA Secretary 
should directly request the US Army and the NPRC to provide copies of 
documents, if any, in the veteran claimant's folder or from rosters of 
WWII service from the NPRC in St. Louis MO or from the National 
Archives.
    Unfortunately, US Army considers these documents as ``classified.'' 
The Army has instructed the NPRC not to release the relevant documents 
without their permission, despite expiration of the 50-year secrecy 
limitation.
    In response to our earlier complaint, the U.S. Army on 2 May 2012 
released to congressional staff the two-page ``Information Paper AHRC-
PDR Subject: Records for World War II Filipino Veterans'' prepared by 
LTC Curriera who was the Chief, Army Personnel Records Division, Human 
Resources Command in Fort Knox KY. (see attachment)
    She wrote: ``The Philippine Army records in question are classified 
by NPRC as Philippine military `organizational records' used to 
establish identity of Missing Persons Act (MPAP) status regarding 
Philippine Army personnel and recognized Guerrillas. These records are 
NOT Official Military Personnel Files (OMPF), and at NO time has the 
U.S. Army produced individual personnel records of OMPF's for 
Philippine Army Veterans and/or eligible Guerillas.'' (my emphasis)
    In her Army memorandum, Curreira confirmed that ``the NPRC does not 
have the authority to release organizational or claim records without 
the appropriate permission.''
    As background on why the US Army has been uncooperative in this 
regard, the secret 1949 ``U.S. Army Recognition Program of Philippine 
Guerrillas'' report declassified in 1988, but only released in July 
2013 by the White House Interagency Working Group, would be helpful. 
The nameless US Army authors of the report frankly describe the 
convoluted and unjust treatment faced by Filipino WWII veterans in 
pursuing their claims.
    Sadly, four American military officers were accused by the US Army 
of engaging in erroneous recognition of guerrillas. As a result of 
their dispute, the US Army quietly revoked en masse 37,190 guerrillas 
who were earlier recognized in 1946 and who were paid by the US Army 
for their service and given honorable discharge documents. (pages 159, 
160, 197 and 213 in http://research.archives.gov/description/6921767 )
    Thus six decades later, many deserving patriotic Filipino veterans 
were blacklisted by the US Army after their names were secretly 
``deleted by roster reconstruction'' from the USAFFE guerrilla rolls in 
1948. (page 160) Their mistake: they belonged to guerrilla units led by 
these four US Army officers. This may be a major factor why there are 
still 4,554 remaining appeals from FVEC claimants today.
    The Philippine Commonwealth Government and the Filipino People of 
16 million (Census estimate, all were US nationals) were faced with the 
overwhelming task of rebuilding after a devastating war that killed 
60,000 Commonwealth soldiers and guerrillas as well as one million 
Filipino civilians who died due to war-related causes, according to the 
US State Department.
    In conclusion, the new VA Secretary should respectfully be 
compelled to promptly award FVEC compensation to these elderly Filipino 
veterans with honorable service when they meet the conditions 
established by the FVEC law, Congressional directives and Court of 
Appeals decisions:
    1) Philippine Commonwealth Army service documentation; or,
    2) Guerrilla service documents when they were recognized by U.S. 
Army officers as certified by the Philippine Government's Army Adjutant 
General Office; and
    3) No derogatory information such as disloyalty or fraud to the 
United States.
    On behalf of thousands of our members and supporters throughout the 
United States and in the Philippines, we again thank your committee for 
holding this crucial hearing to find solutions for our heroes.
    Eric Lachica
    Eric Lachica ACFV Executive Director for
    Patrick Ganio Sr., ACFV President
    Franco Arcebal, Vice-president Membership
    Maursese Oteyza Owens, Vice-President Administration
    Affiliated Leaders: Art Caleda - Honolulu; Franco Arcebal & Susan 
Dilkes - Los Angeles; Malou Mariano - Long Beach; Manuel Cannu & Bert 
Andrade - San Diego; Regino Nacua, Rudy Asercion & Rodel Rodis - San 
Francisco; Laymon Jones - Oakland; Eddie Arabe & Sarah Gonzalez - San 
Jose; Monina Nuega - Sacramento; Ernesto Anolin - Delano; Conrado Rigor 
& Thelma Sevilla - Seattle; Lourdes Ceballos & Cesar Elpidio - NV; Jose 
RED, Jaime Peralta & Linda Mayo - Jersey City; Rafael DE Peralta & 
Sonny Sampayan - NY; Senen Fontanilla VFW & Purita - PA; Jesse Baltazar 
& Romy San Antonio - VA; Celestino Almeda & Angelyn Tugadorzan - MD; 
Dick Aquino - FL; and others.
    Over the past two decades, our coalition has lobbied Congress with 
our champions, Senators Daniel Inouye and Daniel Akaka and their 
colleagues in the House: Representatives Benjamin Gilman, Bob Filner, 
Darrell Issa and Joe Heck. We were assisted by sympathetic White House 
staff under the Clinton, Bush and Obama Administrations.
    Our goal is to win full official recognition and equitable benefits 
for our WWII veterans. With our allies: the VFW, American Legion, 
D.A.V. and community partners like the National Federation for Filipino 
American Association, we won veterans' burial benefits in 2000, full 
war-related disability compensation in 2001, VA healthcare in 2003, and 
Filipino Veterans Equity Compensation law in 2009. Our organization 
does not receive federal funds or have federal contracts.


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
